Press Release  Office of the Inspector General | Smithsonian
Skip navigation
Explore
About Us
Mission & Vision
Our History
Encyclopedia Smithsonian
Art & Design
History & Culture
Science & Technology
Visit
Overview
Hours
Maps & Directions
Floor Plans
Dining
Visiting with Kids
Visiting with Groups
Get Involved
Overview
Volunteer
Giving
Membership
Docents
Citizen Science
Host an Event
Connect
Overview
Blogs
Facebook
Flickr
Google+
Instagram
Mobile
Pinterest
Podcasts
Tumblr
Twitter
YouTube
Virtual World
Educators
Kids
Researchers
Volunteers
Members
Fellows/Interns
Home
Museums and Zoo
Research Centers
Cultural Centers
Exhibitions
Events
Collections
Newsroom
Home » Office
of the Inspector General
Smithsonian Parking Lot Attendants Arrested for
Stealing Parking Fees from Aircraft Museum
U.S. Attorney’s Office
August 06, 2012
Eastern District of Virginia
(703) 299-3700
ALEXANDRIA, VA—Three employees of Parking Management Inc. (PMI) were arrested late Saturday
afternoon (August 4, 2012) on charges of stealing at least $400,000 of visitor parking fees collected at the Smithsonian Institution’s Steven F. Udvar-Hazy Center in Chantilly, Virginia.
Neil H. MacBride, United States Attorney for the Eastern District of Virginia; Scott S. Dahl, Inspector General for the Smithsonian Institution; and James W. McJunkin, Assistant Director in Charge of the FBI Washington Field Office, made the announcement after the charges became public.
Freweyni Mebrahtu, 45, of Sterling, Virginia; Meseret Terefe, 36, of Silver Spring, Maryland; and
Genete Yigzu, 46, of Alexandria, Virginia, were charged in three separate criminal complaints with
embezzling and stealing federal monies belonging to the Smithsonian Institution. Each individual faces
a maximum of 10 years in prison, if convicted. The two women, Mebrathu and Yigzu, and one man,
Terefe, were arrested by agents of the Smithsonian Office of Inspector General and Federal Bureau of
Investigation after finishing their shifts at the Udvar-Hazy Center on August 4, 2012
The Udvar-Hazy Center is the annex of the National Air and Space Museum and is home to the Space
Shuttle Discovery and other historic aircraft. Along with the Air and Space Museum in Washington,
D.C., these two Smithsonian sites display the largest collection of aircraft and spacecraft in the world.
According to an affidavit filed in court, Mebrathu, Terefe, and Yigzu each began stealing parking fees in April 2009, shortly after PMI took over management of the Udvar-Hazy Center’s parking lot. The
individuals charged are booth attendants employed by Washington, D.C.-based PMI, which holds a
fixed-rate contract with the Smithsonian to operate the 2,000 vehicle parking lot. Visitors pay a $15
daily fee per vehicle to use the parking lot. The affidavit relates that closed-circuit television cameras captured Mebrathu, Terefe, and Yigzu repeatedly unplugging electronic vehicle counters located in each attendant’s booth as a way to manipulate accurate vehicle counts. Terefe was also observed hiding a bundle of cash taken from the entrance fees in a side pocket of his red duffel bag, which he carried away from the parking facility at the end of his shift.
Court documents allege that Mebrathu and Terefe, on some days, each stole more than $4,000 from the Smithsonian. Yigzu is accused of stealing as much as $1,185 on a single day. The documents allege a three-year loss to the Smithsonian of at least $400,000.
The investigation was initiated by the Smithsonian Office of the Inspector General and jointly
investigated by the Federal Bureau of Investigation. Assistant United States Attorney Jasmine Yoon
and Special Assistant United States Attorney James McDonald are prosecuting the case on behalf of the
United States.
Criminal complaints are only charges and not evidence of guilt. A defendant is presumed to be innocent until and unless proven guilty.
A copy of this press release may be found on the website of the United States Attorney’s Office for the Eastern District of Virginia at  http://www.usdoj.gov/usao/vae.
Mobile Site |
Contact Us |
FAQs |
About Us |
E-News |
Employment |
Site Map
Privacy |
Terms of Use |
Administration |
Governance |
Policies & Reports |
Accessibility
Records Requests |
Inspector General |
General Counsel |
Supplier Diversity and EEO
Page Last Modified: 8/29/2012